No. 20-8093

IN THE

J&npreme CLnurt af the Mnitcb
Martin James Kipp,

Petitioner,
v.
Ron Broomfield, Acting Warden,
Respondent.
■

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY TO BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
Cuauhtemoc Ortega
Federal Public Defender
Mark R. Drozdowski*
Celeste Bacchi
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org

Attorneys for Petitioner
* Counsel of Record

TABLE OF CONTENTS

Page

1

ARGUMENT

14

CONCLUSION

1

TABLE OF AU THORITIES
PAGE(S)

Federal Cases

Brecht v. Abrahamson,
507 U.S. 619 (1993)

1, 6

Brumfield v. Cain,
576 U.S. 305 (2015)

4

Clark v. Chappell,
936 F.3d 944 (9th Cir. 2019)

10, 11, 12

Clay v. United States,
537 U.S. 522 (2003)

1

CNH Indus. N. V. v. Reese,
138 S. Ct. 761 (2018)....

1

Coe v. Bell,
161 F.3d 320 (6th Cir. 1998)

13

Cullen v. Pinholster,
563 U.S. 170 (2011)

3

■

Fry v. Pliler,
551 U.S. 112 (2007)

5

Godoy v. Spearman,
861 F.3d 956 (9th Cir. 2017) (en banc)

8, 9, 10, 11

Inyo County v. Paiute-Shoshone Indians,
538 U.S. 701 (2003)

2

Kipp v. Davis,
971 F.3d 939 (9th Cir. 2020)

7

Kotteakos v. United States,
328 U.S. 750 (1946)

5

Mattox v. United States,
146 U.S. 140 (1892)..

1

ii

TABLE OF AUTHORITIES
PAGE(S)
McNair v. Campbell,
416 F.3d 1291 (11th Cir. 2005)

12, 13

Oklahoma Tax Commission v. Citizen Band Potawatomi Indian
Tribe of Oklahoma,
498 U.S. 505 (1991)

Oliver v. Quarterman,
541 F.3d 329 (5th Cir. 2008)

1
13

Porter v. McCollum,
558 U.S. 30 (2009) (per curiam)

8

Remmer v. United States,
347 U.S. 227 (1954)....

1

Robinson v. Polk,
444 F.3d 225 (4th Cir. 2006)

9, 10

Thompson v. Keohane,
516 U.S. 99 (1995).

2

Turner v. Louisana,
379 U.S. 466 (1965)

9

United States v. Lara-Ramirez,
519 F.3d 76 (1st Cir. 2008) ..

12

Wharton v. Chappell,
765 F.3d 953 (9th Cir. 2014)

5, 6

Federal Statutes

28 U.S.C. § 2254(d)

3, 4,8

iii

ARGUMENT

Respondent’s Brief in Opposition (“BIO”) does not rebut Martin Kipp’s
showing that his case is worthy of review:

(1) to resolve a “recurring question on which courts of appeal have
divided:”1 Whether clearly established federal law requires that a
habeas petitioner’s claim that his constitutional rights were violated
when a juror brought a Bible into the jury room and read from it to
other jurors during capital-sentencing deliberations be analyzed
under the presumed prejudice rule of Mattox v. United States, 146
U.S. 140, 150 (1892), and Remmer v. United States, 347 U.S. 227,
229 (1954), because the Bible-reading is an impermissible external

influence on the jury’s deliberations and verdict;
(2) to resolve “an apparent conflict with this Court’s precedents”2
resulting from the Ninth Circuit’s failure to apply a presumption of
prejudice to Kipp’s claim and instead denying relief for lack of
prejudice under Brecht v. Abrahamson, 507 U.S. 619 (1993); and

(3) to resolve inter-circuit and intra-circuit splits on whether Brecht
applies to claims of Bible-reading during jury deliberations. CNH

1 Clay v. United States, 537 U.S. 522, 524 (2003).
2 Oklahoma Tax Commission v. Citizen Band Potawatomi Indian Tribe
of Oklahoma, 498 U.S. 505, 509 (1991).

1

Indus. N.V. v. Reese, 138 S. Ct. 761, 765 & n.2 (2018); Inyo County v.

Paiute-Shoshone Indians, 538 U.S. 701, 709 & n.5 (2003).
Petition at i, 22-32, 37-38.

Respondent argues that “the decision below does not squarely
implicate any tension between the lower courts on” the first question noted
above because “the court of appeals resolved the case on harmlessness

grounds and expressly declined to decide whether the state court should have
treated the reading of Bible verses as misconduct or applied a presumed
prejudice rule.” BIO at 10. Respondent’s effort to conceal a conflict fails. By

denying Kipp’s claim for lack of prejudice under Brecht, the Ninth Circuit
essentially ruled that the presumed prejudice rule of Mattox and Remmer
does not apply, and that ruling is in conflict with opinions by this Court,

other Circuit Courts, and the Ninth Circuit itself. See Petition at 23-24, 3233, 37-38. The Ninth Circuit opinion implicates and sufficiently addresses a

live, recurring and important conflict in the Circuits to make Kipp’s case a
good vehicle for review. See Thompson v. Keohane, 516 U.S. 99, 106 (1995)

(granting certiorari to decide whether a presumption applies to a habeas
claim challenging a state court judgment “[b]ecause uniformity among federal
courts is important on questions of this order”).

Respondent asserts that Kipp’s argument that he was prejudiced by the
juror misconduct “rests in substantial part on evidence that was never

2

presented in state court,” namely, a declaration signed in 2007 by his trial
investigator Alan Clow. BIO at 8 & n.2, 11. Respondent is correct that

Clow’s 2007 declaration was not filed in state court; Kipp mistakenly said it
was in his petition. Accordingly, that declaration cannot be considered in

evaluating whether 28 U.S.C. § 2254(d) bars relief. Cullen v. Pinholster, 563

U.S. 170, 181, 185 (2011).
But as Kipp explained in his petition, his claim is based “primarily” on

the declaration of juror Algertha Rivers, which was filed in state court.
Petition at 19. Her declaration recounts “that during penalty phase

deliberations a female juror with dark, shoulder-length hair brought in a
Bible and read it to” the jurors, telling them it “would help” them “in making

a decision” whether Kipp should live or die. Id. at 19-20. Rivers stated that
“[a] little over half of the jurors had a religious background and strong
religious beliefs.” Id. at 20. Juror questionnaires filed in state court showed
that seven seated jurors self-identified as Christian. Id.

The importance of the 2007 Clow declaration, according to Respondent,

is that it “is the source of the petition’s allegations about the history of jury
deliberations and why particular jurors changed their votes.” BIO at 11. But

the state court had before it a declaration by juror Arnez Vasquez signed on
December 2, 2000, which explained that the jury voted three times during its
penalty-phase deliberations. District court docket 13-124 (Exhibit 312 to

3

Kipp’s first state habeas petition). Vasquez also hand wrote at the bottom of
his otherwise typewritten declaration that “[t]he Satanic letters

demonstrated Martin Kipp’s anger towards society. Some of the jurors were
aware of Satanism as a demonic force or a cult, and they were affected by

E

that evidence.” Id.

Thus, the evidence before the California Supreme Court via the
declarations of Rivers and Vasquez and the juror questionnaires was that a
majority Christian jury voted three times before choosing death, and selected

death only after a juror read “an eye for an eye” passage from the Bible to
other jurors to help them make their decision. The state court could not

reasonably deny Kipp’s claim based on the record before it, particularly
without affording him an evidentiary hearing. Petition at 35-37. And with
28 U.S.C. § 2254(d) satisfied based on the state court record, the federal

courts can properly consider the 2007 Clow declaration on de novo review.

Brumfield v. Cain, 576 U.S. 305, 311 (2015) (citing Pinholster, 563 U.S. at
185-186). Indeed, Kipp submitted the declaration in support of his motion for
an evidentiary hearing on his juror misconduct claim. District court docket

99.

Respondent argues that “the admonition to ‘judge not lest ye be judged’

would reasonably be understood as admonishing against harshness toward
petitioner.” BIO at 12 (original emphasis). But the jurors had already

4

passed judgment on Kipp during the guilt deliberations before this verse was
discussed, reducing any moderating impact this directive might otherwise
have had.

Respondent argues that the references to Satan in the letters by Kipp

introduced into evidence by the prosecution do not establish prejudice
because the petition does not challenge the admission of those letters or their

references to Satan. BIO at 12. Respondent does not provide a cite in
support of this proposition. A finding of prejudice need not rely solely on

evidence shown to have been unconstitutionally admitted. Rather, prejudice
is analyzed by examining all the circumstances of trial to assess the harm

from the constitutional error. See, e.g., Kotteakos v. United States, 328 U.S.
750, 762 (1946) (reviewing courts must examine “the proceedings in their

entirety” when assessing prejudice); id. at 764 (courts must “weigh the error’s
effect against the entire setting of the record”); id. (prejudice from an error is
determined “in relation to all else that happened”). Indeed, prejudice

findings are often based, at least in part, on facts like the length of jury

deliberations, jury notes, etc., which are not the subject of any claim of

constitutional error. Petition at 36; Fry v. Pliler, 551 U.S. 112, 125 n.4 (2007)
(Stevens, J., cone, in part and dis. in part) (collecting cases); Wharton v.
Chappell, 765 F.3d 953, 978 (9th Cir. 2014).

5

Adding insult to injury, Respondent argues that the letters introduced

by the prosecution show that any jury misconduct was harmless. BIO at 13.
Kipp is entitled to argue that the letters show that the jury misconduct was

prejudicial.

Respondent argues that “[w]hen viewed in light of the evidence that

was before the jury, any effect or influence that the Bible verses had on the
verdict cannot plausibly be viewed as ‘substantial’ or ‘injurious.’ Brecht, 507

U.S. at 638.” BIO at 12. But as Kipp showed in his petition, he established
prejudice even if Brecht applies to his claim. The three days of jury

deliberations before reaching a death verdict indicates a close case and the
prejudice from the jury misconduct. Petition at 36; Wharton, 765 F.3d at 978.

Further, with regard to the circumstances of the capital offense, the
evidence of rape -- the sole special circumstance found by the jury making
Kipp death-eligible -- was weak. The rape kit was inconclusive. As the

California Supreme Court explained in its opinion on direct appeal,
“[examination and analysis” of the “sexual assault kit” “revealed the

presence of semen and sperm in Frizzell’s vagina and on her external genital
area, but not in her mouth or rectal area.” Pet. App. 187. Prosecution

evidence showed that “[t]here was no trauma to the external vaginal or anal

areas, but there was redness and erosion of the cervix consistent with sexual
intercourse.” Pet. App. 188. The criminalist acknowledged that the redness

6

and erosion were consistent with normal, unforced sexual intercourse.

Petition at 8.
Finally, Respondent, like the Ninth Circuit, overlooks the import of the

Ninth Circuit’s decision granting relief in Kipp’s separate appeal challenging
his Orange County convictions and death judgment for the murder and

attempted rape of Antaya Howard, which was entered more than a year
before voir dire began in his Los Angeles County case. See Kipp v. Davis, 971
F.3d 939, 943 (9th Cir. 2020). At the guilt-phase in Orange County, the

prosecution presented evidence that Kipp raped and murdered Tiffany
Frizzell in Los Angeles County. Id. at 943. At the penalty-phase in Los

Angeles County, the prosecution presented evidence that Kipp had murdered
and attempted to rape Howard. Pet. App. 9.

The Ninth Circuit granted guilt relief in the Orange County case
because the Frizzell evidence was impermissible propensity evidence
“expressly relied on” by the prosecution “to prove the necessary intent to rape
and intent to murder while attempting to rape” Howard. Kipp, 971 F.3d at

957. The court stressed that “[b]ased solely on the evidence presented about
the Howard crime, the jury could have at most inferred that Kipp was with
Howard the night in question, and they might have had sex.” Id. Yet in
finding any errors in Los Angeles County harmless, the court emphasizes the

aggravating evidence before the jury of Kipp “brutally raping and killing . . .

7

Howard,” Pet. App. 34, charges its other opinion acknowledges were not

lawfully proven and which do not weigh in favor of finding prejudice. Porter
v. McCollum, 558 U.S. 30, 42 (2009) (per curiam). As noted in the petition,

the Ninth Circuit’s circular reasoning undermines its analysis and
conclusion. Respondent commits the same error in relying on the Howard

evidence to argue the jury misconduct was harmless.

Respondent argues that “[t]he California Supreme Court could

reasonably have concluded that Remmer and Mattox did not require any

presumption of prejudice in the circumstances of this case.” BIO at 15.
Respondent asserts that “[t]hose cases are too far afield from this one to

satisfy the requirements for relief under Section 2254(d). Indeed, because
both cases arose from federal prosecutions and did not cite or discuss the
federal Constitution, it is not even clear that their prejudice rules were

announced as a matter of constitutional law rather than under this Court’s

supervisory power over lower federal courts.” Id. at 16.

The State’s current stance is an about-face from its position in Godoy v.
Spearman, 861 F.3d 956 (9th Cir. 2017) (en banc), a habeas case challenging

a California state court judgment subject to AEDPA. There, the State agreed
that Mattox and Remmer constituted clearly established federal law for the
petitioner’s claim that he was prejudiced by a juror’s communications with a

8

“judge friend” about the case which were relayed to other jurors. Id. at 958959, 962, 964 n.3.
Respondent argues that this Court’s cases granting relief because of an

impermissible external influence on the jury are factually distinguishable.

BIO at 15-17. But Fourth Circuit Judge H. Lloyd King persuasively

synthesized this Court’s caselaw in his dissent in Robinson v. Polk, 444 F.3d
225, 231 (4th Cir. 2006), and showed its applicability to cases like Kipp’s:

The external influences recognized by the Court in
those decisions are factually diverse, but they share a

single, constitutionally significant characteristic: they

are external to the evidence and law in the case, and

carry the potential to bias the jury against the
defendant.

This legal principle unifies the bailiffs

remarks disparaging the defendant in Parker, the

relationship of confidence between the jury and key
prosecution witnesses in Turner,3 and the effort to
bribe a juror in Remmer.

3 Turner v. Louisana, 379 U.S. 466 (1965).

9

This legal principle also unifies a juror bringing a Bible into the jury room

and reading passages from it to other deliberating jurors to help them decide

whether a capital defendant should live or die. Id. at 232.

Respondent contends that “the California Supreme Court could
reasonably have concluded that, even if a presumption of prejudice did apply

in this case, that presumption was rebutted.” BIO at 18. No it couldn’t.
Respondent did not rebut the presumption of prejudice in state court with
“other, contrary evidence” showing there was no reasonable possibility that

the Bible reading influenced the death verdict. Godoy, 861 F.3d at 959.
Instead, Respondent just argued that Rivers’s declaration was not credible

based on the declaration itself. Petition at 20-21. Respondent also argued
the claim should be denied without an evidentiary hearing. The state court
could not reasonably deny Kipp’s claim under clearly established federal law,

particularly without first affording him a hearing. Petition at 35-37; Godoy,

861 F.3d at 959-960.
Respondent’s discussion of cases cited by the Ninth Circuit and Kipp to

try to show there is “no genuine conflict between the circuits” merely

highlights the conflicting approaches among and within the circuits that
require this Court’s intervention. BIO at 19-22. Respondent asserts that the
Ninth Circuit’s decisions in Godoy and Clark v. Chappell, 936 F.3d 944 (9th

Cir. 2019), amended on denial of rehearing, 948 F.3d 1172 (9th Cir. 2020), “do
10

not conflict with” its denial of Kipp’s claim for failure to satisfy Brecht

because those cases “remanded jury misconduct claims for consideration of

the presumed prejudice standard without addressing whether the Brecht
standard might independently bar the claim.” BIO at 22 n.7. But Godoy held
that if, on remand, “the state does not present contrary evidence that rebuts

the presumption of prejudice by showing ‘there is no reasonable possibility

that Juror 10’s communications influenced the verdict’ . . . the district court
should grant Godoy’s petition for a writ of habeas corpus.” 861 F.3d at 970.

That is not the language of Brecht, but of the more defense-friendly standard
that applies under Mattox and Remmer. Godoy made clear that Brecht had
no role to play in that case.

In Clark, similar to here, the district court denied a claim that a capital
sentencing juror voted for death after being told that “the Bible says, ‘an eye

for an eye,”’ for lack of prejudice under Brecht. Clark, 936 F.3d at 971. The

Ninth Circuit reversed and remanded because “the district court did not have

the benefit of [its] decision in Godoy to determine whether the contact [with a
minister, who provided the Bible passage to a juror during trial] was

‘sufficiently improper’ and raised ‘a credible risk of affecting the outcome of
the case’” adequate to invoke a presumption of prejudice under MattoxRemmer. Id. The Ninth Circuit instructed that “if the district court finds the

presumption triggered, the state must address its burden of showing that

11

[the juror’s] contact with his minister was harmless -- in other words, that

there was ‘no reasonable possibility that the communication influenced the

verdict . . . .’” Id. at 972. Again, this is not the language of Brecht. The
conflict between the Ninth Circuit’s approaches in Clark and Godoy on the

one hand, and in Kipp’s case on the other, is clear.

Respondent states that United States v. Lara-Ramirez, 519 F.3d 76 (1st
Cir. 2008), “said nothing about whether a presumed prejudice analysis should
displace the Brecht standard on federal habeas review of a state-court

judgment.” BIO at 19. But Lara-Ramirez held that the district court “did not

conduct the investigation necessary to determine the magnitude of the
prejudice resulting from the presence of the Bible in the jury room” and that

this duty to investigate existed “just as it would in other situations where

extraneous materials have been brought into the jury’s deliberations.” 519
F.3d at 89. Lara-Ramirez thus supports Kipp’s position that “Bible-reading

is an impermissible external influence on the jury’s deliberations and
verdict.” Petition at i.

Respondent asserts that the analysis in McNair v. Campbell, 416 F.3d

1291 (11th Cir. 2005), “is not inconsistent with the decision below in this
case.” BIO at 20-21. But McNair explained that the district court properly
rejected the petitioner’s claim “[b]ecause the state could successfully rebut

the presumption of prejudice arising from the jury’s consideration of
12

extraneous evidence.” 416 F.3d at 1309. This holding is in stark contrast to

the Ninth Circuit’s denial of relief here for the failure to satisfy Brecht.
Respondent states that “[t]he Fifth Circuit’s decision in Oliver v.
Quarterman, 541 F.3d 329 (5th Cir. 2008), actually aligns with the Ninth
Circuit’s disposition below” because it denied relief under Brecht. BIO at 21.

But Oliver demonstrates the conflict among the circuits on whether the
Mattox-Remmer presumption of prejudice applies when a juror brings a Bible
into the jury room and reads from it to other deliberating jurors (Oliver

I

answered this question, “yes”)4 and whether such claims can be denied for
lack of prejudice under Brecht. Petition at i, 22-32, 37-38.

4 The court concluded that “it is clear that the prohibition of external
influences from Remmer, Turner, and Parker applies to this factual scenario.”
541 F.3d at 336. See also Coe v. Bell, 161 F.3d 320, 351 (6th Cir. 1998)
(“there is error” in “cases in which a Bible was in the jury room” “because the
book was not properly admitted evidence”).
13

CONCLUSION

For the reasons set forth above and in the petition for a writ of
certiorari, the Court should grant Kipp’s petition.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: August 4, 2021
MARK R. DROZDOWSKI*
CELESTE BACCHI
Deputy Federal Public Defenders
Attorneys for Petitioner
*Counsel of Record

14

